No. 19-123

In the Supreme Court of the United States
SHARONELL FULTON, ET AL.,
Petitioners,
v.
CITY OF PHILADELPHIA, ET AL.,
Respondents.
CERTIFICATE OF SERVICE
I, Charles A. Rothfeld, counsel for Amicus Curiae Lawrence G. Sager and a
member of the Bar of this Court, certify that on this 20th day of August, 2020, I
caused this Brief of Amicus Curiae Lawrence G. Sager Supporting Respondents to be
served by electronic means on the following:
Mark Leonard Rienzi
The Becket Fund for Religious Liberty
1200 N. Hampshire Ave., NW, Suite 700
Washington, DC 20036
(202) 955-0095
mrienzi@becketlaw.org
Counsel for Petitioners Sharanell
Fulton, et al.

Leslie Cooper
American Civil Liberties Union
125 Broad Street
New York, NY 10004
lcooper@aclu.org
(212) 519-7815
Counsel for Intervenor Support Center
for Child Advocates and Philadelphia
Family Pride

Deepak Gupta
Gupta Wessler PLLC
1900 L Street, NW, Suite 312
Washington, DC 20036
(202) 888-1741
deepak@guptawessler.com
Neal Kumar Katyal
Hogan Lovells US LLP
555 Thirteenth St., N.W.
Washington, DC 20004
(202) 637-5528
neal.katyal@hoganlovells.com
Counsel for City of Philadelphia, Dep’t of
Human Services for the City of
Philadelphia, Philadelphia Comm’n on
Human Relations

I further certify that all parties required to be served have been served.

/s/ Charles A. Rothfeld
Charles A. Rothfeld
Mayer Brown LLP
1999 K Street, N.W.
Washington, D.C. 20006-1101
(202) 263-3000
crothfeld@mayerbrown.com

